Katharine Van Dusen
D 415.772.5712
kvandusen@coblentzlaw.com

August 1, 2019

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543-0001
Re:

Marquardt v. Fletcher, S. Ct. No. 19-76

Dear Mr. Harris:
I am counsel of record for the respondent in the above-captioned case. The petition for a writ of
certiorari in this case was filed on July 11, 2019, and docketed on July 15, 2019. Respondent’s
opposition is due August 14, 2019. We respectfully request, under Rule 30.4 of the Rules of
this Court, a 30-day extension of that deadline to September 13, 2019.
The extension is necessary to permit respondent adequate time to consider and address the
petition, which is nearly 9,000 words long. The extension is also necessary because the
attorney with principal responsibility for preparing the brief in opposition has been heavily
engaged in other litigation matters since the petition was filed, and will be out of our offices
during the week of August 5-9.
The proposed extension is unlikely to prejudice petitioner or affect the ultimate disposition of this
case.
Very truly yours,
COBLENTZ PATCH DUFFY & BASS LLP

Katharine Van Dusen

CC: See Attached Service List

17599.001 4842-0916-4190.1

SERVICE LIST
LORNA K. JORGENSEN
Ada County Deputy Prosecuting Attorney
Counsel of Record
JAN M. BENNETTS
Ada County Prosecuting Attorney
200 W. Front Street, Room 3191
Boise, Idaho 83702
Telephone: (208) 287-7700
Email: ljorgensen@adacounty.id.gov
Counsel for Petitioner
RICHARD H. SEAMON
1297 Highland Drive
Moscow, Idaho 83843
Counsel for Petitioner

17599.001 4836-2078-1982.1

